DOE/IG-0476




               AUDIT                BEST PRACTICES FOR
              REPORT            ENVIRONMENTAL MANAGEMENT
                                  BASELINE DEVELOPMENT




                                         JULY 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                            July 7, 2000


MEMORANDUM FOR THE SECRETARY


FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Report on "Best Practices for Environmental
                      Management Baseline Development"


BACKGROUND

In February 1999, you directed the Office of Environmental Management (EM) to implement
controls to correct weaknesses in the environmental liability estimate identified during the Fiscal
Year 1998 financial statement audit. You also requested the Office of Inspector General (OIG) to
conduct an interim status review to ensure that these controls were sufficient to correct the
weaknesses. In August 1999, the OIG reported that completed and planned corrective actions by
EM and the Chief Financial Officer (CFO) should improve the liability estimate. These actions also
had a positive impact on EM's project management through improvements in its baseline
development processes.

Baseline development is the cornerstone of sound project management. A credible project baseline
allows Headquarters and field project managers to track project cost, scope, and schedule; future
project benefits; potential pitfalls; risks; and challenges. It can also be used to show stakeholders
the relationship between the near-term budget limits and long-term project objective. The objective
of this report is to share and promote, throughout the Department, the use of best practices employed
by EM in its efforts to improve baselines.

RESULTS OF AUDIT

EM and CFO improved baseline development through the use of best practices developed while
correcting weaknesses in the environmental liability estimate. These best practices were designed to
ensure that baseline development guidance was followed and that the baselines developed were
more accurate and supportable and periodically updated. EM and the CFO deserve credit for the
timely execution of effective corrective actions, many of which could be implemented throughout
the Department. The OIG is supportive of the Department's ongoing and planned efforts in this
area. We believe that Department initiatives to improve baseline estimates are vital to successful
project management at all sites.

While these improvements are important steps, recent OIG and other independent reviews indicated
that problems with EM baselines still existed. The OIG found instances of baselines that were
                                            2


incomplete, contained duplicate costs, were not being properly updated, or contained outyear costs
estimates that were not supportable. In addition, two other independent reviews of EM projects
reported problems in technical scope definition and cost estimating.

We recommended that the Department continue to use the corrective actions that resolved its
material weakness in environmental liability reporting. EM should ensure that the best practices are
in place, require periodic spot checks of baseline components, and share the results with EM
management and CFO representatives. Because the best practices discussed in this report have
broad applicability, we also recommended that they be included, as appropriate, in the Department's
Project Management Manual.

MANAGEMENT REACTION

The Department concurred with the recommendations and agreed that sharing the "best practices"
and the quality characteristics has the potential to improve the quality of project baselines. The
Department plans to incorporate the recommendations of this report in the Project Management
Manual.

Attachment

cc: Deputy Secretary
    Under Secretary
    Assistant Secretary for Environmental Management
    Chief Financial Officer
Best Practices For Environmental Management Baseline
Development


TABLE OF
CONTENTS


                   Overview

                   Introduction and Objective .................................................................... 1

                   Conclusions and Observations .............................................................. 1


                   Best Practices for Environmental Management Baseline
                   Development

                   Details of Finding .................................................................................. 3

                   Recommendations and Comments ........................................................ 7


                   Appendices

                   1. Departmental Policies And Procedures ............................................ 9

                   2. Scope and Methodology ................................................................. 10

                   3. Past Audits ...................................................................................... 12
Overview
INTRODUCTION AND   During the Cold War, the United States Government built a large
OBJECTIVE          industrial complex to design, test, and produce nuclear weapons. The
                   activities of this complex resulted in extensive environmental
                   contamination including unprecedented amounts of contaminated waste,
                   water, and soil. The Department of Energy's (Department) Office of
                   Environmental Management (EM) is responsible for managing the
                   cleanup of the environmental contamination. EM estimated the total
                   lifecycle cost of the cleanup effort to be $168 billion over the next 70
                   years.

                   A major factor in the success or failure of the Department's
                   environmental cleanup projects has been the extent to which projects
                   have been defined. Well-defined projects are based on a sound
                   technical foundation that lends itself to a realistic schedule and
                   representative cost estimates. A baseline is the quantitative expression
                   of technical requirements, schedule, and projected costs. As such, the
                   baseline provides the definition of a project and becomes a major factor
                   in its success or failure. Without credible project baselines, managers
                   may have difficulty controlling cost, maintaining schedule, measuring
                   performance, and demonstrating results to stakeholders.

                   The Office of Inspector General (OIG) identified material weaknesses
                   in the Department's environmental liability reporting in the Fiscal Year
                   (FY) 1997 and FY 1998 Consolidated Financial Statements. To correct
                   the material weaknesses, EM, in conjunction with the Office of Chief
                   Financial Officer (CFO), launched an initiative in FY 1999 to improve
                   baselines for its cleanup projects. The objective of this report is to share
                   and promote, throughout the Department, the use of best practices
                   employed by EM in its efforts to improve baselines.


CONCLUSIONS AND    EM, in conjunction with the CFO, has enhanced its baseline
OBSERVATIONS       development process primarily through the use of best practices
                   employed by some sites to correct the material weakness. During our
                   review of selected project baselines, we identified best practices for
                   ensuring that baseline development guidance was followed. These best
                   practices led to additional best practices that helped ensure the baselines
                   developed were accurate, supportable, and periodically updated.

                   While improvements were made, recent OIG and other independent
                   reviews indicated that problems with EM baselines still existed. The
                   OIG reported in an audit of the management of tank waste remediation
                   at the Department's Hanford site (DOE/IG-0456) that the Department


Page 1                                                        Introduction And Objective/
                                                           Conclusions And Observations
         did not have a fully integrated or complete baseline. The OIG also
         determined during the annual audit of the FY 1999 consolidated
         financial statements that certain lifecycle baselines omitted or
         duplicated costs, were not properly updated, or contained outyear cost
         estimates that were not supportable. In addition, two congressionally
         mandated independent assessments of EM projects released during FY
         1999 identified problems in the related baselines technical scope
         definition and cost estimating.

         EM and the CFO should ensure that the best practices identified in this
         report are applied on a consistent basis to all EM sites and project
         baselines as appropriate. In addition, the Office of Engineering and
         Construction Management should consider including them in the
         Project Management Manual.



                                       __________ (Signed)______________
                                               Office of Inspector General




Page 2                                         Conclusions And Observations
Best Practices For Environmental Management Baseline
Development

                       Baseline development is the cornerstone of sound project management.
                       A credible baseline allows Headquarters and field project managers to
                       track project cost, scope, and schedule; future project benefits; potential
                       pitfalls; risks; and challenges.


Past Weaknesses In     Although project baselines are important to successful project
Baseline Development   management, external and internal reviewers have identified
                       weaknesses in the Department's project baseline practices. During
                       recent years, the National Research Council (Council) and the OIG have
                       identified needed enhancements in project baseline development.

                       The Council conducted a review of the Department's project
                       management practices in FY 1998. The review identified a number of
                       shortfalls in various areas affecting baseline development, including
                       cost estimation, scheduling, and change control procedures. The
                       Council also determined that the Department had difficulties
                       establishing project definition and concluded that inadequate project
                       definition accounted for 50 percent of cost increases in environmental
                       remediation projects.

                       The OIG identified similar weaknesses in project baselines that
                       supported the Department's environmental liability reporting in the FY
                       1997 and FY 1998 financial statement audits. The OIG found several
                       weaknesses in environmental baselines, including inaccuracies and
                       incomplete documentation of the estimates. Another identified
                       weakness was inadequate updating of the baselines to reflect changes in
                       scope, schedule, and cost of projects.


Baseline Development   The Department has undertaken initiatives to address the baseline
Initiatives            development weaknesses. For example, EM, in conjunction with the
                       CFO, established internal control guidelines to strengthen the baseline
                       development process for cleanup projects and included specific controls
                       to ensure that the baselines were supportable and updated. The CFO
                       issued additional guidance to ensure financial personnel were involved
                       in the environmental cleanup project baseline development process.
                       The Department has also established the Office of Engineering and
                       Construction Management to develop project management policies,
                       procedures, and practices to address concerns raised by the Council.
                       This office is currently developing a Project Management Manual to
                       address this management initiative.


Page 3                                                                       Details Of Finding
                 Successful implementation of EM and CFO guidance contributed to
                 correcting baseline weaknesses disclosed during previous reviews. The
                 following discussion outlines best practices employed in improving
                 project baselines that supported the environmental liability estimate.
                 They should be considered by the Office of Engineering and
                 Construction Management when addressing the Council concerns.


Best Practices   In the past, EM's guidance for baseline development included
                 requirements for ensuring baselines were accurate, supportable, and
                 updated, but did not include adequate controls for implementation. The
                 best practices we identified during our review of selected project
                 baselines in FY 1999 included activities that ensured that the baseline
                 development guidance was implemented. The commitments made by
                 certain field offices to implement the guidance resulted in additional
                 best practices that ensured baselines were accurate and supportable and
                 appropriately updated.

                                       Guidance Implementation

                 Over the last 3 years, EM provided the field with baseline development
                 guidance that included requirements for baselines to be accurate,
                 supported, and up-to-date. However, not until EM and field managers
                 effectively communicated and actually verified that the guidance was
                 being faithfully executed did the baseline development process begin to
                 improve.

                                       Effective Communication

                 For projects of large magnitude and complexity, such as EM cleanup
                 projects, efficient lines of communication between Department
                 Headquarters, field offices, and contractors are imperative. The first
                 step the Department took in improving communication was the issuance
                 of a letter from the Secretary to EM that clearly stated the need to
                 correct the weaknesses and required a written status of the corrective
                 actions. In response to the Secretary's letter, EM developed the Internal
                 Control Guidelines. In addition, the Acting Assistant Secretary for EM
                 issued the guidelines with a clear message for corrective action and
                 required written responses back from the field on whether the
                 guidelines had been met. Finally, EM prepared a status report for the
                 Secretary based on the responses from the field on implementing the
                 guidelines.




Page 4                                                               Details Of Finding
                         Successive Verification of Baselines

         Prior audit coverage showed it is essential that Department
         Headquarters and field offices periodically review and test site
         baselines. During FY 1999, EM and the CFO applied a process of
         successive verification to ensure that their guidance was followed.
         Both EM and the CFO required separate written confirmations that the
         guidance was met and performed internal validations on a sample of
         project baselines at selected field offices. Sites with EM baselines were
         subjected to internal validations either during the onsite visits by EM
         Headquarters personnel or via video conferencing. The objective of the
         validations was to ensure that project lifecycle baselines were
         adequately supported and that any major changes were incorporated.
         The field CFO personnel were also required to select a sample of
         baselines for verification and formally reported their results back to
         Headquarters. In addition, the guidance required review and approval
         of the baseline and lifecycle planning estimates by both Federal and
         contractor management.

                         Accurate and Supportable Baselines

         The development of accurate and supportable baselines is a major
         undertaking. The Department's environmental cleanup projects are
         often very complex technically and involve many sub-activities.
         Further, many individuals with differing expertise can be involved in
         preparing the baselines. The development of baselines is complicated
         further by turnover of contractor and Departmental employees involved
         in the process. To respond to the commitment to implement EM
         guidance, a number of sites employed best practices involving jury
         reviews, external validation, professional cost estimation, and
         consistent contingency calculation. These practices increased baseline
         accuracy and support by increasing oversight of the baselines and
         ensuring consistency in skills and cost estimating.

                                      Jury Review

         To address the impact of project complexity on baseline accuracy and
         support, the Idaho National Environmental and Engineering Laboratory
         instituted a "jury review" process to provide greater oversight of
         baseline development. The staff was comprised of Federal and
         contractor program managers, technicians, budget representatives, and
         cost estimators. This multi-disciplinary team reviewed and criticized
         each baseline to ensure that work scope was covered, data was


Page 5                                                        Details Of Finding
         consistent with site assumptions, and the cost estimates were
         defendable. Each step of the jury review process was documented,
         including initial results and final resolution of any problem identified.

                                   External Validation

         Periodic external validation was another best practice employed to help
         ensure baseline accuracy and supportability. In FY 1999, the
         management and integrating contractor at Oak Ridge hired a consultant
         to perform a limited validation of its baselines. This review identified
         several areas of needed improvement that the contractor promptly
         addressed. Oak Ridge EM and CFO personnel also took a proactive
         approach during the external validation to ensure the results of the
         review were valid and corrective actions were taken.

                                     Cost Estimation

         To improve accuracy and consistency in baseline development, the
         Idaho Operations Office hired professional cost estimators to replace or
         support individuals of other scientific or engineering disciplines. As an
         alternative, the creation of an in-house cost estimator training program
         could ensure greater accuracy and consistency in estimating skills.

                                Contingency Calculation

         To ensure that risk is consistently captured in project baseline cost
         estimates, the Richland Operations Office required that contingency,
         the cost used to measure risk, be applied to its environmental
         restoration baselines as a separate item. Richland also required that
         cost estimates specifically identify the amount of contingency included
         and adopted a site-wide methodology for calculating contingency costs.
         Specifically identifying the amount of contingency in a baseline
         highlights the amount of risk in the project. In addition, using a
         consistent methodology to measure contingency will help make
         baselines more comparable.

                                   Updating Baselines

         Once developed, baselines should be periodically updated to reflect
         changes in scope, cost, and schedule. One barrier to keeping baselines
         updated included the large number of changes that can occur during a
         given year. For example, in FY 1999 the EM contractor at Oak Ridge
         Operations Office submitted approximately 600 proposed changes to


Page 6                                                         Details Of Finding
                  the baseline. When reviewing the field office responses to implement
                  EM guidance, the EM contractor at Oak Ridge utilized a web-based
                  change control system. Such a system raises the visibility of changes to
                  baselines, highlights breakdowns in the change control process, and
                  fosters more involvement by affected parties. In addition, when
                  proposed changes are posted, including the last level of approval, those
                  responsible for the delay are easily identified. We believe that a web-
                  based system also allows easier access to proposed and completed
                  baseline changes to Federal and contractor management.


Problems Still    While the best practices discussed above led to improvements, recent
Exist             reviews demonstrate that problems still exist in EM baselines. The OIG
                  audit report " The Management of Tank Waste Remediation at the
                  Hanford Site" (DOE/IG-0456) concluded that the project baseline was
                  not fully integrated or complete and had not been validated in 7 years.
                  The OIG also determined during the annual audit of the FY 1999
                  consolidated financial statements that certain lifecycle baselines
                  excluded or duplicated decontaminating and decommissioning (D&D)
                  costs, were not updated to reflect current cost estimates, or included
                  estimates for outyear costs that were unsupportable. In addition, two
                  congressionally mandated independent project assessments completed
                  in FY 1999 concluded for one EM project that the technical cost and
                  schedule baseline was obsolete and another EM project baseline
                  contained an inaccurate cost estimate.


RECOMMENDATIONS   Reforms in EM's baseline development process should improve the
                  process for defining the nature and scope of the work to be performed,
                  allow the Department to plan and implement a more cost-effective
                  approach to cleanup, and correct the remaining problems in EM
                  baselines. To further enhance and facilitate the Department's baseline
                  development processes:

                  1. The Assistant Secretary for Environmental Management should:

                         a.     Continue using EM Internal Control Guidelines, status
                                reports, and onsite verification to ensure proper
                                implementation;
                         b.     Ensure that the "best practices" or quality characteristics
                                mentioned above are in place for all projects as
                                appropriate; and
                         c.     Require periodic spot checks of baseline components
                                and share the results with EM upper management and
                                CFO representatives.

Page 7                                             Recommendations And Comments
             2. The Chief Financial Officer should assist EM in assessing the
                adequacy of project baseline development at each site and continue
                to require routine spot checks of environmental baseline
                components.

             3. The Director, Office of Engineering and Construction Management,
                should consider the best practices discussed in this report when
                developing the Department's Project Management Manual.


MANAGEMENT   The Department concurred with the recommendations. The
REACTION     Department agreed that sharing the "best practices" and the quality
             characteristics has the potential to improve the quality of project
             baselines and will incorporate the recommendations of this report in the
             Project Management Manual.


AUDITOR      Management's planned actions are responsive to our recommendations.
COMMENTS




Page 8                                        Recommendations And Comments
Appendix 1
                       DEPARTMENTAL POLICIES AND PROCEDURES


    The Department has established policies and procedures to aid in ensuring that project
    management activities are carried out in the most effective manner to allow for successful
    completion of a project.

    DOE Order 5700.2D was issued in 1992 to establish policies and responsibilities for developing
    and reviewing project cost estimates, standardizing cost estimating procedures, and improving
    overall cost estimating techniques. The Order required that cost estimates be developed and
    maintained throughout the life of each project and noted that the project manager was
    responsible for the official baseline estimate. The Order also required that local cost guidance
    be developed, stating how an estimate will be developed, who will review the estimate, and
    how the estimate will be documented. In addition, the Order recommended that independent
    cost and estimate checks are performed to validate project lifecycle estimates. DOE Guide
    430.1-1 was issued as a companion to DOE Order 5700.2 with the objectives of improving the
    quality of cost estimates and further strengthening the DOE program/project management
    system. DOE Guide 430.1-1 notes that accurate and timely cost estimates are integral to the
    effective and efficient management of Departmental projects and programs. The Guide
    provided uniform cost estimating methods and guidance for gathering preliminary information
    in order to prepare detailed cost estimates.

    In FY 1999, EM established the "EM Internal Control Guidelines and Review Checklist" to
    ensure that sound internal controls existed over estimating the environmental liability. These
    guidelines included general process guidance, baseline guidance, and baseline change control
    guidance. The general process guidelines require that each field office identify an individual or
    organization to have lead responsibility for the overall management of the EM internal control
    system. In addition, the guidance requires that field offices update the lifecycle estimates for
    major changes occurring throughout the year. The guidance requires that each field office have
    a documented process for development, submission, review, and approval of project baselines.
    The guidance also requires that a documentation file be maintained for each project to support
    cost, scope, and schedule estimates. In addition, Departmental and contractor managers are
    required to review and approve each baseline and lifecycle planning estimate. The baseline
    change control guidelines require that each field office document responsibilities and
    procedures for the change control process, including procedures for documenting changes and
    determining their impact on the lifecycle baseline.

    Field offices and related contractors also issued guidance for estimating project lifecycle costs
    at their respective sites. For example, the Management and Integration contractor at Oak Ridge
    Reservation issued baseline management and change control guidance to identify and define the
    technical, cost, and schedule baselines and the Baseline Change Proposal Process. This
    guidance was provided to project managers and cost estimators at the site for use in developing
    the lifecycle baselines for projects. Other field offices that we visited had issued similar
    guidance used to develop their lifecycle baselines.

Page 9                                                                          Policies And Procedures
Appendix 2
SCOPE         This audit was conducted during March 2000 at Headquarters. In
              addition, it combines the results from the audits of the Department's
              consolidated financial statements for FYs 1997, 1998, and 1999
              conducted from April through December 1997 (IG–FS-98-01), from
              May 1998 through January 1999, (IG–FS-99-01), and from April 1999
              through January 2000 (IG–FS-00-01), respectively. Specifically, this
              audit draws from the results of fieldwork on the Department's
              environmental liability reporting from the financial statement audits.
              Fieldwork for the environmental liability was conducted at
              Headquarters and at the Idaho, Oak Ridge, Richland, Savannah River,
              and Nevada Operations Offices, the Rocky Flats Field Office, and the
              Carlsbad Area Office.


METHODOLOGY   To accomplish the objective of this report, we:

                      •   Reviewed Departmental guidance for maintaining project
                          baselines, including corrective actions issued as a result of
                          the FY 1998 financial statement audit;

                      •   Reviewed OIG reports and National Research Council
                          studies to identify problems with project management
                          practices within the Department;

                      •   Reviewed prior results of internal controls, compliance with
                          laws and regulations, and completeness of the
                          environmental liability; and

                      •   Held discussions with key management responsible for
                          developing, approving, recording, and reporting project
                          lifecycle baselines.

              The audit was made in accordance with generally accepted Government
              auditing standards for performance audits. The audit relied on tests of
              internal controls and compliance with laws and regulations made during
              the financial statement audits for FYs 1997, 1998, and 1999 to the
              extent necessary to satisfy the audit objectives. The financial statement
              audits were conducted in accordance with generally accepted
              Government auditing standards for financial audits. To a significant
              extent, our audit did not utilize computer-processed data and did not
              examine the reliability of that data. Since the financial statement audits
              included in the scope of this audit relied on computer-generated data,
              we, as part of those audits, evaluated the general and application control


Page 10                                                     Scope And Methodology
          environment of certain systems and evaluated the reliability of the data
          on a test basis. Because our reviews were limited, they would not have
          necessarily disclosed all internal control deficiencies that may have
          existed at the time of our audit.

          The Office of Environmental Management and the Chief Financial
          Officer waived an exit conference.




Page 11                                                Scope And Methodology
Appendix 3
                  PAST AUDITS RELATING TO BASELINE DEVELOPMENT


    Special Report on the Audit of the Management of DOE Construction Projects (DOE/IG-0398,
    November 21, 1996). In 1994 and 1995, the Office of Inspector General issued several reports
    on the Department's construction activities. In these reports, we expressed concern about the
    construction planning process and questioned whether planned construction was necessary to
    meet mission needs. The reports also pointed out that the Department did not ensure that
    originally identified needs were still valid several years after a project's conception. This report
    highlighted issues dealing with opportunities to improve the planning process to avoid
    construction of unneeded or oversized facilities.

    Management of Tank Waste Remediation at the Hanford Site, (DOE/IG-0456, January 21,
    2000). The last audit of the management of the tank waste program at Hanford was completed
    in 1993. This audit disclosed that the tank waste program was managed as a number of separate
    projects and lacked an integrated baseline. While the Department has made progress since our
    last audit, important elements of an integrated management approach are not in place.

    Department of Energy: Opportunity to Improve Management of Major System Acquisitions
    (Chapter Report, 11/26/96, General Accounting Office (GAO) RCED-97-17). From 1980
    through 1996, the Department of Energy (DOE) conducted 80 projects that it designated as
    major system acquisitions. DOE has completed 15 of these projects--most of them behind
    schedule and over budget. Three of the completed projects have yet to be used for their
    intended purpose. Thirty-one other projects were terminated before completion, after
    expenditures of more than $10 billion. The remaining 34 projects are ongoing. Cost overruns
    and "schedule slippages" continue to plague many of these ongoing projects. GAO believes
    that four key factors underlie these problems: unclear or changing missions, incremental
    funding of projects, a flawed system of incentives for both DOE employees and contractors,
    and too few DOE staff with the appropriate skills to oversee contractors' operations. In recent
    years, DOE has undertaken several initiatives that are helping to improve the agency's overall
    management. Although not all of these efforts may improve the management of DOE's major
    system acquisitions, GAO believes that their implementation offers an excellent opportunity for
    DOE to address the key factors.

    Nuclear Waste: Process to Remove Radioactive Waste From Savannah River Tanks Fails to
    Work (Letter Report, 04/30/99, GAO/RCED-99-69). GAO noted that a number of factors
    combined to cause DOE and Westinghouse Savannah River Corporation to spend almost a half
    billion dollars and to take about a decade to decide that the in-tank precipitation process would
    not work safely and efficiently as designed. The most serious factors were the ineffectiveness
    of the contractor's management and of the Department's oversight of the project. DOE and the
    contractor encountered delays in starting up the in-tank precipitation facility because they began
    construction before the design of the process was completed. Because DOE funded the project
    with operating funds, rather than with construction funds, the project was less visible to
    congressional oversight. There was also an inadequate understanding by DOE and the


Page 12                                                                                          Past Audits
    contractor of the in-tank precipitation process and the cause of the benzene generation. The
    failure of the in-tank precipitation process to operate as originally planned will delay the
    cleanup of high-level waste at the Savannah River Site and increase costs. The facility was
    planned to begin operating in 1988, and now, DOE estimates that an alternative process may
    not be available until as late as 2007 and could cost from about $2.3 billion to $3.5 billion over
    its lifetime.

    Nuclear Waste: Management Problems at the Department of Energy's Hanford Spent Fuel
    Storage Project (Testimony, 05/12/98, GAO/T-RCED-98-119). GAO noted several problems
    with the Hanford Spent fuel project including (but not limited to): as stored, most of the spent
    fuel at Hanford presents a risk of releasing nuclear materials to the environment and a
    consequent danger both to workers and the public; this fuel sits in two water basins that are well
    beyond their design life and are located just 1,400 feet from the Columbia River; never
    designed for long-term storage in water, some of the spent fuel has corroded, creating a
    radioactive sludge that has accumulated in the storage basins; because of leaks in the basins,
    workers risk exposure to radioactive materials if contaminated water is released to the soil, and
    the public risks exposure if this water moves through the soil to the river; it is likely that
    radioactive materials carried in water leaking from one of the basins have reached the river at
    least twice in the past; and these problems and unresolved technical questions will continue to
    affect DOE's ability to set reliable targets.

    Nuclear Waste: Department of Energy's Hanford Tank Waste Project - Schedule, Cost and
    Management Issues, GAO/RCED-99-13, October 8, 1998. This audit was conducted in
    response to a request from the House of Representatives Chairman of the Committee on
    Commerce and the Chairman of the Subcommittee on Oversight and Investigations, Committee
    on Commerce, to review a revised Departmental approach to addressing the waste disposal
    problem at Hanford through a privatization contract. The report discussed (1) how the
    Department's current approach changed from its original privatization strategy; (2) how that
    change affected the project's schedule, cost, and estimated savings over conventional
    Departmental approaches; (3) what risks the Department was now assuming with this change in
    approach; and (4) what steps the Department was taking to carry out its project oversight
    responsibilities. Given the technical uncertainties stemming from the fact that the proposed
    waste treatment technology had yet to be tested at production levels on Hanford's complex and
    unique wastes, and management challenges such as obtaining needed contracting expertise,
    GAO concluded that the Department's financial risks were great.




Page 13                                                                                         Past Audits
                                                                              IG Report No. DOE/IG-0476

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
        electronically through the Internet at the following alternative address:

          U.S. Department of Energy Office of Inspector General, Home Page
                               http://www.ig.doe.gov

           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
